CERTIFICATE OF SERVICE
NO. TBD
Ashley Wilcox Page
Petitioner(s)
v.
Todd L. Hicks, Et. Al.
Respondent(s)
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the ASHLEY
WILCOX PAGE PETITION FOR WRIT OF CERTIORARI, by mailing three (3) true and correct copies of the
same by USPS Priority mail, postage prepaid for delivery to the following addresses:
David R. Mellon
The University of Alabama System
UAB Office of Counsel
1720 2nd Avenue South
Suite AB 820
Birmingham, AL 35294-0108
(205) 934-3474
drmellon@uasystem.edu
Counsel for Respondents

Lucas DeDeus

August 8, 2019
SCP Tracking: Montiel, Sr.-6752 Taylor Circle-Cover White

